                     AUDIT REPORT


                   Audit of NRC’s Office of Nuclear Security
                            and Incident Response

                       OIG-06-A-09 February 16, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                        February 16, 2006




MEMORANDUM TO:            Luis A. Reyes
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum/RA/
                          Assistant Inspector General for Audits


SUBJECT:                  AUDIT OF NRC’S OFFICE OF NUCLEAR
                          SECURITY AND INCIDENT RESPONSE
                          (OIG-06-A-09)


This report presents the results of the subject audit. Agency comments provided
at the exit conference on November 10, 2005, and written response, dated
January 19, 2006, have been incorporated, as appropriate, into this report.
Appendix C contains the agency’s written comments and our response.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken
or planned are subject to OIG follow-up as stated in Management Directive 6.1.

We appreciate the courtesies and cooperation extended to us by members of
your staff during the audit. If you have any questions or comments about our
report, please feel free to contact me on 301-415-5915, or Beth Serepca on
415-5911.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                           Audit of NRC’s Office of Nuclear Security and Incident Response



EXECUTIVE SUMMARY

       BACKGROUND

       In the aftermath of the terrorist attacks of September 11, 2001, the
       Nuclear Regulatory Commission (NRC) established the Office of
       Nuclear Security and Incident Response (NSIR) in April 2002 to
       develop overall agency policy and provide management direction
       for security issues and incident response at nuclear facilities.
       NSIR’s mission is to prevent nuclear security incidents and to
       respond to security and safety events. Since its inception, NSIR
       has been involved in many substantive security and incident
       response initiatives.

       PURPOSE

       The objective of this audit was to conduct an independent
       evaluation of NSIR operations. Specifically, the evaluation focused
       on NSIR’s management of emergent work, communications with
       stakeholders, and implementation of the organizational assessment
       recommendations.

       RESULTS IN BRIEF

       NSIR has accomplished a great deal since its inception in April
       2002. Along with the standing up of a new organization, NSIR
       officials drafted and implemented numerous security orders,
       approved security plans, enhanced the force-on-force exercise
       program, and coordinated with the Department of Homeland
       Security on a wide variety of security initiatives. Now, however,
       NSIR needs to focus on refining and formalizing its day-to-day
       operations to improve its ability to meet its mission. Specifically,
       NSIR needs to:

       ¾ improve the management of its workload,
       ¾ improve its security communication procedures, and;
       ¾ fully address the organizational effectiveness recommendations.

               Workload Management Improvements

       NSIR lacks an adequate process for evaluating and integrating
       unanticipated assignments into its current workload and its process
       for tracking emergent work is ineffective. As a result, staff are
       overworked, and 12 percent of the planned and budgeted work was
       not achieved.



                                    i
                   Audit of NRC’s Office of Nuclear Security and Incident Response



        Security Communications Procedures

Requirements for the establishment of NSIR included mandates to
improve the agency’s communications concerning security issues
and to determine the effectiveness of communications between
NSIR and its internal and external stakeholders. Despite these
requirements, weaknesses exist in NSIR’s process for interacting
with internal and external stakeholders and the office has
performed limited assessments of the success of its
communications.

Incomplete Consideration of Contractor Recommendations

NSIR managers did not give timely consideration to
recommendations provided by the contractor hired to assess its
organizational effectiveness 1 year after the office’s inception.
Although the organizational assessment was mandated by the
Commission, there was no associated mandate to follow through
on the recommendations. In addition, competing priorities in NSIR
made it difficult for managers to complete action on the
recommendations. As a result, the office still exhibits some of the
problems identified during the initial assessment.

RECOMMENDATIONS

A consolidated list of recommendations appears on pp. 18 of this
report.

AGENCY COMMENTS

At an exit conference with agency senior executives held on
November 10, 2005, NRC officials generally believed the
recommendations in the report were constructive however, they did
not believe the findings reflected the current condition of the
organization. Subsequent to the exit conference, NRC provided
informal comments on the draft report and OIG met with an NSIR
representative to address specific report issues and concerns. This
final report incorporates revisions made, where appropriate, as a
result of the subsequent meetings and the agency’s informal
comments.

On January 19, 2006, the Deputy Executive Director for Reactor
and Preparedness Programs, Office of the Executive Director for
Operations, provided a formal response to this report in which the
staff generally agreed with the report’s recommendations, but not




                            ii
                  Audit of NRC’s Office of Nuclear Security and Incident Response



with all aspects of the OIG assessment. Based on the formal
comments, no additional changes were made to the report.

The Deputy Executive Director’s transmittal letter and specific
comments on this report are included as Appendix C. Appendix D
contains OIG’s specific responses to the agency’s comments.




                           iii
       Audit of NRC’s Office of Nuclear Security and Incident Response




[Page intentionally left blank.]




                iv
                    Audit of NRC’s Office of Nuclear Security and Incident Response



ABBREVIATIONS AND ACRONYMS

       NRC     U.S. Nuclear Regulatory Commission

       NSIR    Office of Nuclear Security and Incident Response

       OEDO    Office of the Executive Director for Operations

       OMB     Office of Management and Budget




                             v
      Audit of NRC’s Office of Nuclear Security and Incident Response




[Page intentionally left blank]




               vi
                                            Audit of NRC’s Office of Nuclear Security and Incident Response



TABLE OF CONTENTS

    EXECUTIVE SUMMARY.........................................................................i

    ABBREVIATIONS AND ACRONYMS ....................................................v

    I.        BACKGROUND .............................................................................1

    II.       PURPOSE......................................................................................3

    III.      FINDINGS ......................................................................................4

         A.     NSIR Needs Workload Management Improvements ...................4

         B.     NSIR’s Security Communications Procedures
                Need Improvement ....................................................................11

         C.     Incomplete Consideration of Contractor Recommendations .....15

    IV.       CONSOLIDATED LIST OF RECOMMENDATIONS ....................18

    V.        AGENCY COMMENTS ................................................................19


    APPENDICES

    A.        SCOPE AND METHODOLOGY...................................................21

    B.        ORGANIZATIONAL EFFECTIVENESS ASSESSMENT
              RECOMMENDATIONS ................................................................23

    C.        FORMAL AGENCY COMMENTS ................................................25

    D.        DETAILED OIG ANALYSIS OF AGENCY COMMENTS..............29




                                                     vii
       Audit of NRC’s Office of Nuclear Security and Incident Response




[Page intentionally left blank.]




               viii
                                          Audit of NRC’s Office of Nuclear Security and Incident Response



I. BACKGROUND

                 The Nuclear Regulatory Commission (NRC) established the Office
                 of Nuclear Security and Incident Response (NSIR) in April 2002 to
                 develop overall agency policy and provide management direction
                 for the evaluation and assessment of security issues at nuclear
                 facilities and incident response. Responsibilities also were to
                 include monitoring and assessing the threat environment and
                 serving as the agency’s security and safeguards interface with
                 other Federal, State, and local agencies. The decision to establish
                 NSIR was pursuant to NRC’s post-September 11, 2001,
                 comprehensive review of the agency’s safeguards and security
                 programs. This review of NRC's organizational structure, staffing,
                 and training relative to security and safeguards determined that
                 greater efficiency and effectiveness would be achieved by
                 consolidating certain NRC safeguards, security, and incident
                 response functions into a single office.

                          Challenges for the New Office

                 The NRC Commission envisioned that NSIR would be a security
                 organization housing the headquarters emergency operations
                 center and managing the emergency preparedness functions. One
                 Commissioner anticipated that NSIR would serve as an advisory
                 board reporting to the Commission with its own staff of engineers
                 and security officials. In this manner, the Commissioner predicted,
                 NSIR would operate as a self-reliant “think tank.” The concern at
                 the time was to avoid combining staff into a traditional program
                 office where they would perform and think no differently than they
                 had in their original offices.

                 The Commission recognized the inherent difficulties that NSIR
                 would face as a new office tasked with fulfilling a specific mission
                 and establishing the infrastructure needed to support the office.
                 Therefore, the Commission asked the office to perform an
                 assessment within 1 year of operations to determine its
                 organizational effectiveness. To fulfill this requirement, NSIR
                 contracted with Acton Burnell, Inc. (Acton Burnell),1 to develop
                 performance measures for areas and functions within NSIR,
                 develop effective and efficient methods for gathering and analyzing
                 performance measure data, and provide a written report assessing
                 their achievement of these performance measures. In the report,
                 dated May 2003, the contractor addressed NSIR’s organizational

1
 Acton Burnell, Inc. was an information technology company that provided consulting services to Federal
Government clients. The company was purchased by CACI International, Inc., during the term of the
contract.

                                                    1
                             Audit of NRC’s Office of Nuclear Security and Incident Response



          effectiveness and made specific recommendations to improve
          leadership roles and responsibilities, implement a public relations
          policy, improve or establish standard internal processes and
          procedures, and improve overall effectiveness of internal and
          external communications.

                NSIR’s Mission and Organization

          NSIR's mission is to prevent nuclear security incidents and to
          respond to security and safety events. The first part of the mission
          focuses on what licensees need to do to ensure adequate security
          for nuclear facilities and material. The latter part of the mission
          refers to what the agency does to both prepare for and respond to
          an incident, e.g., how NRC interacts with other Federal agencies
          and with licensees.

          NSIR is organized into three divisions: the Division of Nuclear
          Security; the Division of Preparedness and Response; and
          Program Management, Policy Development and Analysis Staff.
          NSIR’s FY 2005 Headquarters staffing level was 199 as shown on
          the organization chart below.

           Office of Nuclear Security and Incident Response
                          Organizational Chart




                              Director and
                             Deputy Director
                                (7 staff)




Division of Nuclear            Division of                        Program
     Security               Preparedness and                  Management, Policy
    (113 staff)                Response                        Development and
                                (59 staff)                      Analysis Staff
                                                                  (20 staff)

          The Division of Nuclear Security develops and directs
          implementation of policies and programs for the evaluation and
          assessment of security at nuclear facilities. The Division of
          Preparedness and Response develops and directs the NRC


                                      2
                            Audit of NRC’s Office of Nuclear Security and Incident Response



         program for investigation of operational incidents and the NRC
         program for regulating emergency preparedness of nuclear power
         plant licensees. Additionally, this division is the agency’s incident
         response interface with the Federal Emergency Management
         Agency and other Federal agencies. Program Management, Policy
         Development and Analysis Staff, an administrative division,
         provides long-range planning, budget development, financial and
         information resources management, human resource analysis,
         Freedom of Information Act coordination, and management of
         principal correspondence.

         According to NSIR officials, in fiscal year (FY) 2005, the office was
         authorized a staff of 193 with an estimated budget of $25,000,000
         for salaries and benefits, and $15,826,000 for travel, training, and
         contract support costs.


II. PURPOSE

      The objective of this audit was to conduct an independent evaluation of
      NSIR operations. Specifically, the evaluation focused on NSIR’s
      management of its emergent work, communications with stakeholders,
      and implementation of the organizational effectiveness assessment
      recommendations. Appendix A contains information on the audit
      scope and methodology.




                                     3
                               Audit of NRC’s Office of Nuclear Security and Incident Response



III. FINDINGS

     Since its inception in April 2002, NSIR has been involved in many
     substantive activities to include implementing security orders and the
     approval of revised security plans for all power reactors and Category I
     fuel cycle facilities, enhanced the implementation of the force-on-force
     exercise program, and coordinated closely with the Department of
     Homeland Security on a wide range of security and safety initiatives.
     However, in the achievement of its mission NSIR:

           A. Needs to improve the management of its workload.

           B. Needs to improve its security communications procedures and
              to be positioned to assess the success of its internal and
              external security communications.

           C. Has not fully addressed the recommendations provided by the
              contractor hired to assess NSIR’s organizational effectiveness.

           These shortcomings occurred because NSIR managers, faced with
           competing priorities, have not spent adequate time to address
           these matters. As a result, NSIR operates in an unpredictable
           environment which negatively impacts its ability to accomplish its
           work, reduces morale of the staff, and shows no sign of
           improvement.

     A. NSIR Needs Workload Management Improvements

           While NSIR has accomplished much, the office still needs to
           improve the management of its workload. Improvements are
           needed because NSIR lacks an adequate process for evaluating
           and integrating unanticipated assignments (“emergent work”) into
           its current workload and because the office’s process for tracking
           emergent work is ineffective. As a result, NSIR staff are
           overworked, the office failed to accomplish 12 percent of its FY
           2004 planned and budgeted activity and managers need to improve
           the ability to adequately accommodate the office’s future workload.

           Efficiency and Decisionmaking Requirements

           The Government Performance and Results Act of 1993 holds
           Federal agencies accountable for achieving program results;
           therefore, NRC developed specific measures to compare actual
           program results with strategic performance goals. The
           achievement of these performance measures are tracked in office
           operating plans and are reported on a quarterly basis to the Office


                                        4
                   Audit of NRC’s Office of Nuclear Security and Incident Response



of the Chief Financial Officer. Outcomes are scored in terms of
successful performance, mixed results, and unsatisfactory
performance.

According to the Government Accountability Office’s Standards for
Internal Controls in the Federal Government, agency internal
controls should provide reasonable assurance that agency
objectives are being achieved, for example, that operations are
effective and efficient, including the use of entity resources.
Furthermore, both this guidance and Office of Management and
Budget Circular No. A-123 (OMB A-123), Management
Accountability and Control, require that internal controls ensure that
reliable and timely information is obtained, maintained, reported,
and used for management decisionmaking. The intent is to ensure
that agency managers receive information needed to assess
whether they are meeting their annual performance goals, as well
as the goal for effective and efficient use of resources.

Workload Management Improvements Needed

NSIR manages its workload ineffectively by focusing on (a)
unanticipated assignments (“emergent work”) to the detriment of (b)
planned and budgeted activities.

       a. The Emergent Workload

Since its inception in 2002, the NSIR staff has had to deal with a
significant number of assignments that fall outside of the planned
and budgeted activities reflected in the office’s annual operating
plan (referred to in NSIR as the Leadership Operating Plan). These
unplanned and unbudgeted assignments, referred to as “emergent
work,” are usually initiated from entities external to NSIR. As
indicated by the pie chart below depicting the 394 emergent work
entries analyzed, 35 percent of the emergent work items are
assigned from the Office of the Executive Director for Operations
(OEDO) and other NRC program offices, 18 percent reflect
requests from other Federal agencies, 15 percent represent work
assigned by the Commission, and the remainder reflects requests
from a variety of other entities.




                            5
                                      Audit of NRC’s Office of Nuclear Security and Incident Response




    Sources of NSIR's Emergent Work, April 2004 - April 2005




               Other Governments 7%        Chairman/ Commission
                                                   15%
      Nuclear Industry 10%


                                                        NSIR 11%


Federal Agencies 18%




              Congress 4%
                                              OEDO 35%




           NSIR managers could not precisely quantify the amount of
           emergent work assigned to NSIR, but estimated that the office
           handles about 12 to 15 FTEs of unexpected work each year based
           on emergent work assignments tracked and managed from May to
           December 2004.

           Examples of emergent work cited by NSIR staff include
           unscheduled participation in national preparedness exercises,
           classification reviews of reports and other documents, responding
           to Chairman and Commission requests for security information, and
           answering queries from Congress and the Department of
           Homeland Security.

                       b. Impact on Planned and Budgeted Activities

           Attending to emergent work has an impact on NSIR’s planned and
           budgeted activities and its ability to support NRC’s performance
           goals. According to NSIR’s FY 2004 Leadership Operating Plan,
           Close Out Status Report, which documents the achievement of
           performance measures established to support NRC’s Strategic
           Plan, NSIR was unable to achieve a satisfactory score for about 12
           percent of its performance indicators. Mixed results were reported
           for 17 percent of the performance indicators. Following are
           examples of the performance measures for which NSIR reported
           unsatisfactory results:


                                               6
                                           Audit of NRC’s Office of Nuclear Security and Incident Response



                  •   FOIA Requests – Forty-three percent of the Freedom of
                      Information Act requests were not completed on time.

                  •   Foreign Travel Indicators – NSIR was generally unable to
                      meet the deadlines for these reports, which summarize issues
                      that have technical or administrative significance to the agency.
                      These reports were not completed on time.

                  •   FTE Expenditures – NSIR was unable to take advantage of
                      staffing opportunities to hire up to its authorized level during FY
                      2004. As a result it was unable to perform activities for
                      safeguards inspections and regulatory improvements.

                  •   Quality of EDO-Controlled Correspondence2 – Twenty-six
                      percent of the controlled correspondence items were returned to
                      NSIR for administrative corrections.

                  Most Assignments Treated as High Priority; Emergent Work
                  Process Not Fully Implemented

                  NSIR does not adequately manage its workload for two reasons:

                  a. NSIR’s process for evaluating the appropriate priority level for
                     emergent work and then integrating these work assignments
                     into the office has not been effectively implemented.

                  b. NSIR is not completely implementing its Emergent Work
                     Process and subsequently cannot use data gathered through
                     this process to adjust resources to better accommodate the
                     office workload.

                           a. Integration of Assignments Needs to be More Effectively
                           Implemented

                  Despite reporting emergent work as a challenge since the office
                  was established in April 2002, NSIR managers generally consider
                  emergent work their first priority and push assignments aside to
                  address the emergent work. Officials said they believe that upper
                  management does not say “no” to additional work. NSIR managers
                  assign most emergent work assignments a high priority weight,
                  frequently adding more assignments to the workload before other
                  high priority work has been completed.


2
  Controlled Correspondence refers to communications that – on the basis of their source, subject matter, or
possible impact on NRC programs – require priority control, response, and management awareness. Such
assignments are conveyed to NSIR through the agency’s green ticket system or through the agency’s Work
Item Tracking System.

                                                     7
                   Audit of NRC’s Office of Nuclear Security and Incident Response



NSIR managers stated that there is high-level interest in security
issues within NRC and from external sources, and NSIR wants to
address its NRC stakeholders and Federal partners by responding
to their respective requests. One manager said NSIR’s job is to
work the highest priority level work – which he considers to be
emergent work – first, and that short-turnaround deadlines are the
“nature of the beast” because a significant portion of NSIR’s
assignments are emergent work.

      b. Incomplete Implementation of Emergent Work Process

NSIR managers are not completely implementing the office’s
Emergent Work Process to help the office obtain timely and reliable
information to plan for and accommodate the emergent workload.

In June 2004, NSIR initiated an Emergent Work Process to help
managers quantify and document NSIR’s emergent work and
assess its impact on budgeted work. Two important tools for this
Process were to be the office’s work tracking database and the
emergent work log (a WordPerfect table located on the shared
drive). The work tracking database was to be used by NSIR
mailroom staff to record specific details about emergent work
assignments and the emergent work log was to be used by NSIR
managers to document the impact of emergent work on the office’s
workload. Together, it was envisioned, these tools would allow
managers the information they need to track emergent work,
assess its impact on office operations, and inform the budget
process to plan for future needs.

However, the Emergent Work Process is not working as effectively
as intended because NSIR staff are not consistently recording
emergent work assignments in the log and mailroom staff are not
including these assignments in the ticket tracking system.
Consequently, NSIR managers do not have the information they
need to quantify these assignments, assess their impact, assist
with resource management and workforce planning, and inform the
budget process. Furthermore, this situation denies managers
access to reliable and timely data necessary to make decisions in
accordance with OMB A-123 requirements. Such information could
also help managers establish a prioritization for new assignments.




                            8
                                              Audit of NRC’s Office of Nuclear Security and Incident Response



                    Staff reported that they do not use the emergent work log
                    consistently because only one user can enter data at a time, it is
                    time consuming to enter the data, and because they have a short
                    amount of time before the assignment is due. In fact, a few
                    sections use an independent tracking system for purposes of
                    managing their own workload.

                    NSIR Operates in a Unpredictable Mode and Lacks Information
                    to Effect Change

                    As a result of treating most assignments as high priority
                    assignments and failing to collect data to inform the budget process
                    to better plan for future emergent work, NSIR is unable to operate
                    in other than an unpredictable mode on a constant basis. This
                    environment of taking on unanticipated assignments and then
                    designating these assignments as high priority required 26
                    members of NSIR’s staff to work 4,739 hours of overtime during FY
                    2004, or approximately 182 overtime hours per person. According
                    to some staff, everything has to be done immediately and in one
                    division it is estimated that 50 percent of the time staff are pulled
                    from one assignment to work on other incoming assignments.
                    NSIR’s attrition rate for fiscal years 2003 and 2004 (5.69 percent
                    and 7.05 percent, respectively) was higher than the agency’s
                    attrition rate.3 Long workdays and unrealistic deadlines are factors
                    that lead to an increase in employee fatigue, stress, a lack of
                    concentration, and burnout. Furthermore, the level of emergent
                    work affects the staff’s ability to turn in OEDO-controlled
                    correspondence that does not have to be returned for corrections,
                    and is completed on time.

                    NSIR staff said they thought the flow of emergent work and other
                    assignments would slow down as the years since the terrorist
                    incidents of 9/11 passed. Given that this has not occurred, NSIR
                    should develop a means for ranking the assignments it receives to
                    ensure the economical use of its resources.

                    Compounding this problem is that NSIR’s emergent work tools
                    (ticket tracking and emergent work log) need to be refined to
                    document the use of its resources and to provide the basis for the
                    budget increases it requires. The emergent work log could be
                    enhanced by including pertinent information such as the number of
                    emergent work assignments NSIR received, how often the
                    assignments are received, the source of the assignments, and how
                    long the staff has to work on them, so managers can better inform
                    the budget process concerning actual resource needs.

3
    The agency’s attrition rate for fiscal years 2003 and 2004 was 5.02 percent and 5.06 percent, respectively.

                                                        9
                   Audit of NRC’s Office of Nuclear Security and Incident Response



Summary

Because NSIR treats most of its assignments as high priority and
has not fully implemented its Emergent Work Process, the office is
unable to effectively manage its workload and operates in an
unpredictable mode on a constant basis. By taking the steps
recommended below, NSIR will reduce the overtime worked by
staff and prevent the staff from experiencing the effects of
employee burnout.

Recommendations:

OIG recommends that the Executive Director for Operations:

1.   Establish a means of assessing the current workload and
     prioritizing assignments, including but not limited to emergent
     work, as they are received, so they can be incorporated into
     the workload without overextending NSIR’s resources.

2.   Review the Emergent Work Process to ensure emergent work
     is accurately documented to assist with workforce and budget
     decisions.

3.   Develop an emergent work log that is user-friendly and
     records the required information on the impact of emergent
     work on NSIR planned/budgeted assignments.




                           10
                        Audit of NRC’s Office of Nuclear Security and Incident Response



B. NSIR’S Security Communications Procedures Need Improvement

     The requirements for the establishment of NSIR included mandates
     to improve the agency’s communications concerning security
     issues and to determine the effectiveness of communications
     between this newly formed office and its internal and external
     stakeholders. Despite these requirements, weaknesses exist in
     NSIR’s process for interacting with other offices and stakeholders,
     and the office has performed limited assessments of the success of
     its communications. These weaknesses exist because NSIR did
     not establish:

     •   Policies and procedures for interactions between NSIR and the
         program offices and regions.

     •   A method to measure the effectiveness of its internal and
         external communications.

     If NSIR is unsuccessful in communicating with its stakeholders,
     these problems could lead to the incorrect dissemination of
     information, inappropriate use of resources, and diminished public
     confidence.

     Commission Mandates for Improved Communications

     In creating NSIR, the Commission included the mandate to improve
     NRC’s security communications, both internally and externally. The
     Commission directed NSIR to (1) improve NRC’s communications
     with internal and external stakeholders, and 2) develop procedures
     to manage NSIR’s interactions and coordination with other NRC
     offices.

     NSIR’s Security Communications Need Improvement

     NSIR communicates with NRC offices, regions, licensees and the
     public in a variety of formats including working groups, steering
     committees, public meetings, and conference calls. Despite these
     interactions and requirements for improved security
     communications and procedures, NSIR’s process for interfacing
     with program offices and regions is not always sufficient.
     Specifically,

     a. NSIR management officials do not always give other program
        offices enough time to thoroughly review, provide input, and
        concur on documents containing reactor security issues.



                                11
                   Audit of NRC’s Office of Nuclear Security and Incident Response



b. The office does not provide sufficient guidance on how regional
   resources to be used for security programs are to be allocated.

c. NSIR lacks a means to determine whether improvements are
   achieved in security communications.

      a. Inadequate Time Allotted for Input and Concurrence

NSIR management officials do not always give other program
divisions enough time to thoroughly review, provide input, and
concur on documents containing reactor security issues. For
example, NSIR allotted only 3 hours for another office’s
management to provide input and concurrence on a document
addressing reactor security issues. This document, which
pertained to fire safety, contained regulations that would have a far
reaching impact on licensees and NRC. Managers in that office
recalled they had significant questions about the document and
raised issues that, they stated, should have been addressed and
resolved earlier in the input and concurrence process. These
individuals informed NSIR that they would not be able to comment
and concur within the time constraint. Therefore, instead of waiting
for that office’s input, NSIR forwarded the document to the Office of
the Executive Director for Operations without the benefit of
agreement on issues that affect more than NSIR. Similar problems
have occurred in situations when NSIR required another office to
review regulatory actions (e.g., generic communications, regulatory
guide revisions, rulemaking) pertaining to safety-security issues.

      b. NSIR Does Not Provide Sufficient Guidance on How
         Regional Resources Are to be Allocated

NSIR has inefficient communications with NRC’s regional offices
concerning the use of resources that NSIR provides to the regions.
Although NSIR provides each region with FTE resources, it does
not sufficiently indicate how these limited resources are expected to
be used during the given year. For example, NSIR will provide
each regional office with 7 FTE to perform physical security
inspections. However, as NSIR adds security requirements, or
assigns emergent work to the regions, NSIR expects the regions to
fulfill the requirements without additional resources. One regional
office management official stated that NSIR neglects to
communicate with the regions ahead of time, and instead just tells
the region what is required of the region when the need arises. In
these instances NSIR can make multiple requests for the region to
use the same resources because NSIR does not make a clear
indication of how the resources are to be utilized.



                           12
                   Audit of NRC’s Office of Nuclear Security and Incident Response



       c. NRC Lacks a Means to Determine Whether
          Improvements are Achieved in Security Communications

NSIR has not assessed its communications or measured its levels
of improvement in communications as mandated by the
Commission when the office was established. As part of the 1-
year assessment of NSIR’s organizational effectiveness, Acton
Burnell interviewed internal and external stakeholders to gauge
stakeholder satisfaction and expectations of the newly formed NSIR
organization. Although the assessment reflected positive results
based on a limited number of questions and respondents, this
cannot be construed as a reliable indicator of improvement due to
those limitations. More than one-half of the respondents in some
groups reported being unqualified to answer, the result was based
on a single question, and only one public interest group was
consulted. Furthermore, internal and external stakeholders were
not interviewed in any of NSIR’s attempts to address some of the
recommendations contained in the Organizational Effectiveness
Assessment. Consequently, NSIR does not know if it has improved
security communications and lacks a baseline from which to
measure improvement.

Policy and Procedure Not Established for Interactions
Between NSIR and its Stakeholders

NSIR’s communication problems exist because the office did not
establish within its infrastructure (1) policies and procedures for
interfaces between NSIR and its stakeholders, including other NRC
program offices, the regions, and public interest groups, and (2)
procedures for assessing improvements in internal and external
communications. Thus, while the office would benefit from policies
and procedures that, for example, provide guidance on managing
the communications process or measuring the status of NSIR’s
communication efforts, NSIR lacks such policies.

In the absence of communications policies, some NSIR
sections/divisions have devised their own policies based on their
experiences and needs. For example, to expedite the
communications process some staff hand carry documents to
gather input from other offices included in the concurrence chain.
NSIR has drafted one procedure for interfacing with the
Commission, titled Office Procedure for Communicating Information
to Commissioners' Assistants, but it is not yet in effect. NSIR office




                           13
                                          Audit of NRC’s Office of Nuclear Security and Incident Response



                   procedures include Internal Commission-Level Correspondence
                   Procedures, COM 203, October 1, 2002, and Management of
                   Controlled Correspondence, COM 201, February 19, 2005, but
                   organizational changes have caused the first procedure to be
                   outdated and the latter not to be used.

                   Diminished Public Confidence

                   NSIR’s lack of policies and procedures for efficient communications
                   with its stakeholders has led to diminished public confidence.
                   Three representatives of public interest groups conveyed
                   dissatisfaction concerning NSIR’s methods for communicating.
                   NSIR’s lack of policies and procedures could also lead to the
                   incorrect dissemination of information and inappropriate use of
                   resources. NSIR’s ability to share sensitive or classified
                   information is limited to those who have a need to know, as well as
                   by NRC policy, however their unclassified communication needs to
                   be increased to enhance public confidence. OIG reported on a
                   related situation in the audit of NRC’s Generic Communications
                   Program4. During that audit, OIG found that the issuance of
                   generic communications outside of NRC’s existing polices and
                   procedures compromises its openness policy thereby affecting the
                   public confidence in NRC’s regulatory process and decision-
                   making.

                   Recommendations

                   OIG recommends that the Executive Director for Operations:

                   4.    Establish and implement policies and procedures for
                         communications between NSIR and internal and external
                         stakeholders.

                   5.    Establish and implement a method to measure the level of
                         effective communications.




4
    Audit of NRC’s Generic Communications Program (OIG-05-A-19), September 30, 2005.

                                                  14
                        Audit of NRC’s Office of Nuclear Security and Incident Response



C. Incomplete Consideration of Contractor Recommendations

     NSIR managers failed to give timely consideration to
     recommendations provided by the contractor hired to assess
     NSIR’s organizational effectiveness 1 year after the office’s
     inception. Although the organizational assessment was mandated
     by the Commission, there was no associated mandate to follow
     through on recommendations. In addition, competing priorities in
     NSIR made it difficult for managers to complete action on the
     recommendations. As a result, 3 years after the contractor issued
     its assessment on NSIR, the office still exhibits some of the
     problems identified during the initial assessment.

     Requirements

     As previously stated, upon its approval for the establishment of
     NSIR, the Commission required the Executive Director for
     Operations to perform an organizational assessment within 1 year
     of the new office’s formation and provide the Commission with the
     results of this assessment. As a result, NSIR entered into a
     contract with Acton Burnell, the consulting firm selected to perform
     the assessment.

     OMB A-123 makes Federal managers responsible for taking timely
     and effective action to correct deficiencies identified by audits,
     evaluations, and related recommendations. In accordance with
     OMB A-123, managers are tasked with promptly evaluating and
     determining proper actions in response to known deficiencies.
     Managers are expected to complete all actions that correct or
     otherwise resolve these problems.

     Incomplete Response to Recommendations

     Despite OMB A-123 requirements for timely response to
     deficiencies identified by audits and evaluations, while NSIR
     managers have taken action on recommendations provided by the
     contractor hired to perform the 1-year assessment some were not
     completely addressed. Furthermore, some actions taken did not
     meet the intent of the recommendations.

     Acton Burnell’s principle findings, reported in NSIR One Year Later:
     An Organizational Effectiveness Assessment, dated May 21, 2003,
     pertained to constantly changing work priorities, inequitable work
     distribution, and the lack of office procedures. This report included
     eight “quick hit” recommendations and five multi-part
     comprehensive recommendations. Implementation of the quick hit
     recommendations required low-cost efforts such as the adoption of

                                15
                    Audit of NRC’s Office of Nuclear Security and Incident Response



pre-existing policies and procedures from other NRC organizations.
The remaining recommendations required a more comprehensive
approach to implement, for example, proactively
influencing/managing priorities and resuming public outreach to
selected external stakeholders. See Appendix B for a full listing of
Acton Burnell’s recommendations.

As stated above, a number of efforts were initiated by various
members of NSIR’s staff to resolve some of the recommendations.
For example, in response to Acton Burnell’s concern about
workspaces located in high-traffic, noisy areas, an NSIR official
worked with the Office of Administration to request additional office
space. However, this did not take care of the initial concern, which
was not focused on a need for additional space, but rather a need
for a quieter space. See Appendix B for OIG’s assessment of
NSIR’s actions.

In 2004 NSIR hired Acton Burnell to perform a “pulse check” to
determine how well NSIR had progressed from the initial
assessment. The “pulse check” was limited in scope with a limited
review of actions taken on recommendations from the prior
assessment. However, the 2004 “pulse check” reported the staff’s
concern about a deviation from the mission due to the high volume
of non-mission-essential emergent work. It was also reported that
the staff felt pressured to work overtime and the culture of the office
is that you can’t say “no” to additional assignments

No Requirement or Process to Address Recommendations

NSIR did not fully implement actions on the assessment
recommendations because

•   There was no requirement to report on actions taken and
    improvements made.

•   NSIR lacked a followup system for tracking the
    recommendations.

•   NSIR faced challenges in handling its workload.

While NSIR was required to conduct an organizational assessment
and report the results to the Commission, there was no requirement
to report on followup activities after the performance of the initial
organizational assessment. NSIR was not required to take the
actions necessary to implement the assessment recommendations.
OIG was told that the assessment recommendations were not
implemented because the NSIR staff was too busy reacting to the

                            16
                   Audit of NRC’s Office of Nuclear Security and Incident Response



environment rather than taking the time to address the
recommendations, and OIG believes the managers preferred to
have the staff handle the emergent work rather than work on the
recommendations.

Similar Issues Remain Today

Similar problems to those identified in Acton Burnell’s 1-year
assessment remain today, as evidenced by the pulse check
performed by Acton Burnell and the findings reported in this OIG
audit report. As a result, NSIR’s program remains affected by
changing priorities that result from emergent work, staff are working
numerous hours of overtime, and managers are unable to turn
down assignments. These issues mirror those reported by the
contractor.

Recommendation:

OIG recommends that the Executive Director for Operations:

6.   Assess the recommendations from the 2003 office
     assessment to determine their applicability and implement
     those that would benefit NSIR today.




                           17
                           Audit of NRC’s Office of Nuclear Security and Incident Response



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.   Establish a means of assessing the current workload and
             prioritizing assignments, including but not limited to emergent
             work, as they are received, so they can be incorporated into
             the workload without overextending NSIR’s resources.

        2.   Review the Emergent Work Process to ensure emergent work
             is accurately documented to assist with workforce and budget
             decisions.

        3.   Develop an emergent work log that is user-friendly and
             records the required information on the impact of emergent
             work on NSIR planned/budgeted assignments.

        4    Establish and implement policies and procedures for
             communications between NSIR and internal and external
             stakeholders.

        5.   Establish and implement a method to measure the level of
             effective communications.

        6    Assess the recommendations from the 2003 office
             assessment to determine their applicability and implement
             those that would benefit NSIR today.




                                   18
                          Audit of NRC’s Office of Nuclear Security and Incident Response



V. AGENCY COMMENTS

       At an exit conference with agency senior executives held on
       November 10, 2005, NRC officials generally believed the
       recommendations in the report were constructive however, they did
       not believe the findings reflected the current condition of the
       organization. Subsequent to the exit conference, NRC provided
       informal comments on the draft report and OIG met with an NSIR
       representative to address specific report issues and concerns. This
       final report incorporates revisions made, where appropriate, as a
       result of the subsequent meetings and the agency’s informal
       comments.

       On January 19, 2006, the Deputy Executive Director for Reactor
       and Preparedness Programs, Office of the Executive Director for
       Operations, provided a formal response to this report in which the
       staff generally agreed with the report’s recommendations, but not
       with all aspects of the OIG assessment. Based on the formal
       comments no additional changes were made to the report.

       The Deputy Executive Director’s transmittal letter and specific
       comments on this report are included as Appendix C. Appendix D
       contains OIG’s specific responses to the agency’s comments.




                                  19
       Audit of NRC’s Office of Nuclear Security and Incident Response




[Page intentionally left blank.]




               20
                         Audit of NRC’s Office of Nuclear Security and Incident Response


                                                                           Appendix A
SCOPE AND METHODOLOGY

       Auditors conducted an independent evaluation of NSIR’s
       operations. The audit focused on NSIR’s management of its
       emergent work, communications with stakeholders, and
       implementation of the organizational assessment
       recommendations.

       OIG reviewed relevant criteria including the Staff Requirements
       Memorandum (SECY-02-0036) that established NSIR;
       Management Directive 10.77, "Employee Training and
       Development," Management Directive 4.4, “Management Controls,”
       the agency’s strategic workforce plan establishing the means for
       recruitment, retention and development of professional engineering
       and security staff; United States Government Accountability Office
       “Standards for Internal Control in the Federal Government,” NSIR
       FY2005 Management Control Plan; NRR Office Instruction No:
       BUD-102, "NRR Add/ Shed/ Defer Procedure." OIG reviewed and
       analyzed the contract between NSIR and Acton Burnell, Inc. for the
       development and implementation of an organizational effectiveness
       assessment and the assessment report developed by Acton
       Burnell, Inc.

       OIG interviewed numerous members of NSIR’s management and
       staff to discuss how the office conducts and handles assessment
       reviews, emergent work, staff development, interoffice
       communication, and relationship development with stakeholders.
       Auditors also interviewed members of the Commission’s staff, and
       employees of the OEDO, NRC program offices and the regions. In
       addition, auditors spoke with industry representatives and
       representatives of public interest groups to determine the
       effectiveness of their interactions with NSIR.

       In an effort to analyze NSIR’s workload, auditors analyzed more
       than 200 Controlled Correspondence tickets from the EDO tracking
       system representing assignments given to NSIR in 2004. More
       than 400 emergent work items contained in NSIR’s emergent work
       log were also analyzed by the audit team to assess the amount of
       unanticipated assignments NSIR received in a 1-year period.




                                 21
                  Audit of NRC’s Office of Nuclear Security and Incident Response



This work was conducted from October 2004 through June 2005, in
accordance with generally accepted Government auditing
standards and included a review of management controls related to
audit objectives. The work was conducted by Beth Serepca, Team
Leader; Shyrl Coker, Audit Manager; Vicki Foster, Senior
Management Analyst; David Ditto, Senior Management Analyst;
Rebecca Underhill, Management Analyst; and Erica Horn, Auditor.




                          22
                                        Audit of NRC’s Office of Nuclear Security and Incident Response


                                                                                          Appendix B
ORGANIZATIONAL EFFECTIVENESS ASSESSMENT
RECOMMENDATIONS


                          Quick Hit Recommendations
      Acton Burnell             Actions Taken in
   Recommendation                 Response to
         (2003)                Recommendations             Pulse Check (2004)            OIG Assessment
(1) Assign DNS              Working group formed to      Has shown                    Action on this
administrative staff to     address this                 improvement in this          recommendation
support DNS technical       recommendation; no           area                         continues
staff                       further action taken
(2) Empower section         NSIR did not take            Mixed results reported       Overcome by office
chiefs to assess            specific action on this      in this area                 reorganizations
functional alignment        recommendation
issues within DNS
(3) Address equitable       NSIR did not take            Equitable work               NSIR continues to rely
distribution of work in     specific action on this      distribution improving;      on specific staff
DNS                         recommendation               use of go to's continues     members
(4) Adopt/modify            Some of NSIR section         Lack of knowledge of         NSIR still needs
existing policies from      chiefs adopted policies      procedures                   improvement in this
other NRC offices           and procedures for their                                  area
                            own sections
(5) Provide DNS staff       NSIR wants to initiate       Mixed results from staff;    IT resources provided,
with IT resources           the creation of an           however, marked              and NSIR has initiated
needed to process           electronic safe room to      improvements are             the development of the
secure information          maintain safeguards          reported for IT/ Tool        electronic safe room
                            information                  Support
(6) Create templates for    NSIR did not address         Not included in the          NSIR's reliance on the
external communication      this recommendation          pulse check                  expertise of the staff
                                                                                      rather than creating
                                                                                      templates does not
                                                                                      meet the intent of the
                                                                                      recommendation
(7) Seek to utilize ideas   NSIR utilizes the            Stated in pulse check        NSIR still needs
of people with pre-NSIR     business knowledge and       that some staff feel their   improvement on this
business knowledge          expertise of its personnel   expertise is not trusted     recommendation
and expertise               who came from other          or respected.
                            offices and agencies
(8) Work with the Office    NSIR requested               No improvement in this       Actions do not meet the
of Administration to        additional office space,     area                         intent of the
improve work                scaled offices down and                                   recommendation
environment. Explore        established shared
ways to reduce              offices
distractions




                                                23
                                       Audit of NRC’s Office of Nuclear Security and Incident Response


                                                                                         Appendix B
ORGANIZATIONAL EFFECTIVENESS ASSESSMENT
RECOMMENDATIONS


         Comprehensive Recommendations

     Acton Burnell              Actions Taken in           Pulse
   Recommendation                 Response to              Check
          (2003)               Recommendations             (2004)            OIG Assessment
(1) Clarify Leadership      NSIR has not taken          Improvement       Distribution of work
Roles and                   specific action on this     shown in this     remains an issue
Responsibilities and        issue                       area
adjust distribution of
work
                            NSIR has recently           Not included      NSIR has shown
(2) Implement or            conducted several           in the pulse      improvement in this
resume public relations     meetings open to the        check             area
outreach                    public
(3) Improve or establish    NSIR began establishing     Mixed             Policies and
standard internal           procedures but had to       results in this   procedures reviewed
administrative              focus on higher priority    area              need improvement
processes and               tasks as the staff grew
procedures
                            NSIR has not fully          Not included      Weaknesses exist in
(4) Improve the overall
                            addressed this issue        in the pulse      NSIR's
effectiveness of internal
                                                        check             communications
and external
                                                                          process
communications

(5) Review internal         NSIR revamped its           Not included      NSIR's new operating
performance goals,          operating plan              in the pulse      plan appears to be
measures, and                                           check             adequate
measurement systems




                                                24
                                         Audit of NRC’s Office of Nuclear Security and Incident Response


                                                                                           Appendix C
FORMAL AGENCY COMMENTS


From:               Melinda Malloy
To:                 Beth Serepca
Date:               2/2/06 11:29AM
Subject:            Staff comments on final draft OIG report re: audit of NSIR
Beth,

The staff provided written comments on OIG's Dec. 19, 2005 final draft audit report on NRC's
Office of Nuclear Security and Incident Response in a memo from William Kane, DEDR to Steve
Dingbaum dated January 19, 2006 (available at ML060240290). This document was marked
"Official Use Only - Sensitive Internal Information" due to the markings on the draft report. OEDO
has reviewed this document and has no objection to its inclusion in OIG's final audit report. As we
discussed, to facilitate completion of the audit report, you may strike out the markings, top &
bottom, on all pages of the memo and annotate the first page to reflect our agreement to put the
memo in the final audit report. As the memo has already been declared as an official record, I will
work with ADAMS IM to correct the copy of the official record in ADAMS. If they tell me to do this
another way, I'll let you know as soon as possible.

           Melinda Malloy,
           OEDO OIG
           Audit Liaison
           415-1785




                                                 25
       Audit of NRC’s Office of Nuclear Security and Incident Response




[Page intentionally left blank.]




               26
Audit of NRC’s Office of Nuclear Security and Incident Response




        27
Audit of NRC’s Office of Nuclear Security and Incident Response




        28
                                Audit of NRC’s Office of Nuclear Security and Incident Response


                                                                                  Appendix D
DETAILED OIG ANALYSIS OF AGENCY COMMENTS

             On November 10, 2005, OIG discussed its draft report with agency
             senior executives. Subsequent to that meeting, NRC provided
             informal comments on the draft report and OIG met with an NSIR
             representative to address specific issues and concerns needing
             further clarification and/or explanation. On January 19, 2006, the
             Deputy Executive Director for Reactor and Preparedness
             Programs, Office of the Executive Director for Operations,
             transmitted a memorandum with formal comments on this report
             (see Appendix C).

             Below is OIG’s analysis of the agency’s formal comments.

             NRC Comment 1

             1. Findings in the report are based on dated performance
                information from Fiscal Year 2004 [page 9, lines 1-25; page 12,
                lines 19-28 (page 7 and page 9 of this final report)] and follow-
                up actions on recommendations made in Fiscal Year 2003
                [page 21, lines 3-12; page 22, lines 10-22]. NSIR’s
                performance has continued to improve since its establishment in
                April 2002. Consequently, the report’s findings and
                recommendations would be more timely and relevant if they
                were based on more current performance information from
                Fiscal Year 2005, the year during which the audit was
                performed and for which budget information is presented in the
                report.



OIG Response
Fiscal Year 2004 performance information was the recent complete year of
data available at the audit’s initiation. As the fieldwork progressed through
June 2005 the performance reports for the First, Second and Third Quarter of
FY 2005 Performance Reports were reviewed to note changes in NSIR’s
performance. Emergent work continued to be cited as a challenge although
some improvements were noted. Furthermore, the Senior Performance
Official’s Report dated September 23, 2005, includes among the areas for
improvements, some of the same issues cited in the report.




                                        29
                   Audit of NRC’s Office of Nuclear Security and Incident Response




NRC Comment 2

2. The report states that NSIR managers have not spent adequate
   time to address workload management, communications, and
   self-assessment recommendations and, as a result, NSIR
   operates in an unpredictable environment that shows no sign of
   improvement [page 5, lines 11-25 (page 4 of this final report)].
   Contrary to the report, NSIR managers have used available
   resources to hire and develop new staff and build the
   organization, successfully completed a large amount of
   emergent work and a significant percentage of budgeted work
   (>88% during Fiscal Year 2004), and developed and
   implemented the work processes and procedures to make NSIR
   more effective and efficient.

   Assessments before, during, and after the audit period have
   documented continued improvement in NSIR’s performance,
   including the recently completed NRC 2005 Safety Culture and
   Climate Survey conducted by the OIG. Moreover, the report
   does not describe ongoing actions by NSIR to improve workload
   management, use experience in developing more realistic
   budgets, and enhance organizational effectiveness and
   efficiency.

   For example, the report omits recognition that the independent
   tracking systems for managing workload [page 12, lines 8-10
   (page 9 of this final report)] are being developed and tested as
   part of a pilot project, approved by NSIR management, to refine
   existing procedures and tools for managing work in the office.
   This pilot was in process during the audit period and has been
   expanded in scope to include additional sections in the Division
   of Nuclear Security. In addition, the report does not recognize
   the reorganizations and addition of managers and supervisors,
   including an ongoing reorganization by the Commission on
   November 14, 2005, to improve workload management and the
   working environment in NSIR.




                           30
                                 Audit of NRC’s Office of Nuclear Security and Incident Response




OIG Response
OIG provided NSIR an opportunity to provide additional information and
supporting documentation for the report after the exit conference and changes
that could be supported were made. While there was discussion of using one
of the section chief’s tracking systems for managing the organization’s
workload, the pilot project did not come to fruition until well after our field work
was completed and no documentation of the pilot was provided during the
collection of report comments from NSIR. NRC’s 2005 Safety Culture and
Climate Survey did not address the specific issues raised in this report.



            NRC Comment 3

            3. The report states that NSIR has not addressed its
               communications nor measured its levels of improvement in
               communications as mandated by the Commission and more
               than half of the respondents to NSIR’s self-assessment reported
               being unqualified to answer the survey questions [page 18, lines
               2-4 and 11-14 (page 13 of this final report)]. Contrary to the
               report, NSIR has assessed its communications (both internally
               and external) as part of the self-assessment in 2003 as directed
               by the Commission and has followed up with assessments of
               internal communications in self-assessments conducted in both
               2004 and 2005. In addition, the report does not recognize that
               at least some of the external stakeholders’ concerns about
               NSIR communications are driven by Commission policy on the
               protection of sensitive information, which contributed to the
               respondents stating that they were not “qualified” to comment
               on NSIR communications because they had not received them
               [page 19, lines 24-27 (page 14 of this final report)].




                                         31
                               Audit of NRC’s Office of Nuclear Security and Incident Response




OIG Response
A number of NSIR’s informal comments were incorporated into this section to
address many of the concerns raised in the comment above. The
communication assessment of 2004, which was provided to us did not include
any external stakeholders and we did not receive documentation verifying that
their inclusion in the 2005 assessment. In fact the Senior Performance
Official’s Report of September 23, 2005, includes communication and
coordination with the Regions, other offices, and DHS, as an area of
improvement for NSIR. The report further states that NSIR should look for
ways to improve the safety, and security interface with counterparts.
Therefore, the report stands as written.


           NRC Comment 4

           4. The report states that NSIR managers failed to give timely
              consideration to recommendations provided by the contractor
              hired to assess NSIR’s organizational effectiveness one year
              after the office’s inception [page 21, lines 3-6 (page 15 of this
              final report)]. Contrary to the report, NSIR aggressively
              considered the recommendations of the contractor’s report
              (dated May 21, 2003) by assessing the recommendations within
              2 weeks of receiving the report, conducting an NSIR
              management retreat (June 4-5, 2003) to assess the
              recommendations and identify short-term and long-term
              enhancements, and documenting the results of the staff’s
              assessment in a Commission paper (SECY-03-0104,
              “Organizational Effectivenss Assessment for the Office of
              Nuclear Security and Incident Response, June 23, 2003). The
              staff briefed the Commission on the assessment results along
              with planned actions in NSIR’s first program review with the
              Commission on July 1, 2003. None of these actions are
              discussed in the report, even though they quite clearly
              document the extensive and timely consideration of the
              contractor’s recommendations.




                                       32
                               Audit of NRC’s Office of Nuclear Security and Incident Response




OIG Response
A significant number of changes were incorporated into this section of the
report based on discussions with NSIR after the exit conference to give NSIR
credit for more actions than we initially reported. In addition, OIG reviewed
documents and interviewed officials about actions subsequent to the release
of the Organizational Effectiveness Assessment and we found that actions
cited in these documents did not take place.




                                       33
